Report No. D-2007-048     January 26, 2007




      Report on Navy Sponsor Owned
       Material Stored at the Space
                    and
      Naval Warfare Systems Centers
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DCI                   Data Collection Instrument
NAVAIR                Naval Air Systems Command
NAVSEA                Naval Sea Systems Command
NAVSUP                Naval Supply Systems Command
OM&S                  Operating Material & Supplies
PMW                   Program Management Warfare
PP&E                  Property, Plant, and Equipment
RRAM/VSOM             Realtime Reutilization Asset Management/Virtual Sponsor Owned
                         Material
SFFAS                 Statement of Federal Financial Accounting Standards
SIMS                  Supply Inventory Management System
SOM                   Sponsor Owned Material
SPAWAR                Space and Naval Warfare Systems Command
SSC                   SPAWAR Systems Center
                Department of Defense Office of Inspector General
Report No. D-2007-048                                                  January 26, 2007
   Project No. D2006-D000FJ-0130.000

         Reporting of Navy Sponsor Owned Material Stored at the
                Space and Naval Warfare Systems Centers

                                 Executive Summary

Who Should Read This Report and Why? Navy personnel responsible for reporting
the amount and value of Sponsor Owned Material stored at Navy facilities should read
this report. This report discusses the control and reporting of Sponsor Owned Material
stored at the Space and Naval Warfare Systems Centers.

Background. The Navy reported $58.3 billion of Operating Materials and Supplies on
the Balance Sheet of its financial statement at the end of the first quarter of FY 2006.
Operating Materials and Supplies are tangible personal property consumed in normal
operations. The Department of the Navy’s Operating Materials and Supplies line item
included a sub-category called Sponsor Owned Material. The Navy defines Sponsor
Owned Material as material used in support of program manager mission requirements.
Sponsor Owned Material is used for item fabrication, assembly, testing, manufacture,
development, repair, or research and development. About $1.14 billion of the Navy’s
Sponsor Owned Material is stored at the Space and Naval Warfare Systems Centers.

Results. The Space and Naval Warfare Systems Command did not accurately report the
amount of its Sponsor Owned Material located at the Systems Centers. About
$130.7 million of the assets were either misclassified or overstated. Also, about
$84.1 million in assets not owned by Space and Naval Warfare Systems Centers were
included in the amounts reported. (Finding A)

The Space and Naval Warfare Systems Command inventory controls did not ensure that
Sponsor Owned Material were properly reported and updated in a timely manner. In
addition, Sponsor Owned Material was being retained and stored beyond allowable time
periods. (Finding B)

As a result of these conditions, the Space and Naval Warfare Systems Command was not
in compliance with provisions of Statement of Federal Financial Accounting Standards
No. 3 as it relates to Operating Materials and Supplies. The Navy also lacked total asset
visibility over Sponsor Owned Material at the Space and Naval Warfare Systems Center
Charleston.

During the course of the audit, the Space and Naval Warfare Systems Center Charleston
and the Space and Naval Warfare Systems Center San Diego took some steps to correct
the deficiencies found. However, additional steps were needed to fully correct the
deficiencies. Space and Naval Warfare Systems Centers needed to perform a complete
wall-to-wall inventory and analysis to properly identify and categorize all assets
classified as Sponsor Owned Material. The Space and Naval Warfare Systems Center
Charleston also needed to improve its total asset visibility program as it related to

                                            i
material stored at its facility through the use of the Real Time Reutilization Asset
Management/Virtual Sponsor Owned Material database. We also identified internal
control weaknesses in the financial reporting of Sponsor Owned Material. The Space and
Naval Warfare Systems Centers needed to establish consistent guidance on reporting
Sponsor Owned Material that conforms with Federal accounting standards.

Management Comments. Comments from the Assistant Secretary of the Navy
(Financial Management and Comptroller) were responsive. The Assistant Secretary of
the Navy (Financial Management and Comptroller) concurred with all recommendations.
In addition, the comments from the Commanding Officer, Space and Naval Warfare
Systems Center San Diego, and the Commanding Officer, Space and Naval Warfare
Systems Center Charleston were also responsive. The Commanding Officers, Space and
Naval Warfare Systems Centers in San Diego and Charleston concurred with all
recommendations. Therefore, no further comments are required.

See the Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                          ii
Table of Contents

Executive Summary                                         i

Background                                                1

Objectives                                                2

Findings
     A. Financial Reporting of Sponsor Owned Material     4
     B. Inventory Controls Over Sponsor Owned Material    9

Appendixes
     A. Scope and Methodology                            16
     B. Report Distribution                              17

Management Comments
     Department of the Navy Comments                     19
     Space and Naval Warfare Systems Command Comments    24
Background
           A Navy Sponsor Owned Material (SOM) Working Group report issued in May
           1999 defined SOM as material used in support of a program manager’s mission
           requirements for production, life cycle maintenance, and installation of systems
           and equipment consistent with the mission charter. The report indicated material
           usage may involve, but is not limited to, item fabrication, assembly, testing,
           manufacture, development, repair, or research and development.

           SOM is reported as an asset on the Navy General Funds Balance Sheet as part of
           Operating Materials and Supplies (OM&S). In the first quarter of FY 2006, the
           Space and Naval Warfare Systems Command (SPAWAR) reported $1.14 billion
           in SOM as OM&S held for use. It did not report any other category of OM&S.

           Command Structure for SPAWAR. SPAWAR partners with three offices: the
           Program Executive Office C4I; the Program Executive Office Space Systems; and
           the Program Executive Office Enterprise Information Systems. Collectively, they
           deliver command, control, communications, and other services to the war fighter.
           SPAWAR consists of five program directorates: SPAWAR Systems Center (SSC)
           San Diego, California; SSC Charleston, South Carolina; SSC Norfolk, Virginia;
           SPAWAR Space Field Activity, Chantilly, Virginia; and SSC New Orleans,
           Louisiana. All SOM for SPAWAR is reported from SSC San Diego and SSC
           Charleston.

           Data Collection Instrument. Naval commands report SOM through a Data
           Collection Instrument (DCI), which is a Navy Web-based system. DCI users at
           the reporting level enter their information each quarter and this information is
           consolidated at the command level. 1 The Assistant Secretary of the Navy
           (Financial Management and Comptroller) consolidates this information at the
           Navy level and provides it to the Defense Finance and Accounting Service for
           inclusion in the financial statements.

           Space and Naval Warfare Systems Command Guidance. SPAWAR
           Instruction 4401.1F, “Policy for Receipt, Storage and Reporting of Repairable
           Project Material Held by SPAWAR Activities,” May 8, 1995, provides policy for
           handling and reporting of Sponsor Owned Material located at SPAWAR
           activities. 2 This instruction applies to material acquired for use in the
           construction or development of equipment or systems for eventual installation at
           another activity, ship, or location. It states that all SPAWAR material, unless
           classified as plant or minor property, should be considered SOM. SOM may be
           assets that are repairable or consumable.

           Inventory and Related Property. In the Statement of Federal Financial
           Accounting Standards (SFFAS) No. 3, “Accounting for Inventory and Related
           Property,” October 27, 1993, issued by the Federal Accounting Standards
           Advisory Board, provided accounting principles for reporting OM&S. The

1
    The actual process may differ for each Naval command.
2
    SPAWAR use of the terms “project material” and “sponsor owned material” are synonymous.

                                                    1
     standard requires that OM&S be reported as an asset on the Balance Sheet and be
     defined as tangible personal property to be consumed in normal operations. Also,
     the standard excludes the following assets from being reported as OM&S:

        •   goods that have been acquired for use in constructing real property or
            assembling equipment for the entity to use,

        •   stockpile materials,

        •   goods held under price stabilization programs,

        •   foreclosed property,

        •   seized and forfeited property, and

        •   inventory.

     The standard requires OM&S to be categorized as:

        •   OM&S held for use,

        •   OM&S held in reserve for future use, or

        •   OM&S excess, obsolete, and unserviceable.

     The standard also requires that once an OM&S asset is issued to an end user, it is
     to be expensed and removed from the Balance Sheet.

     Property, Plant, and Equipment (PP&E). SFFAS No. 6, “Accounting for
     Property, Plant and Equipment,” June 1996, states that PP&E is defined as
     “tangible assets that (1) have a useful life of 2 or more years, (2) are not intended
     for sale in the ordinary course of business, and (3) are intended to be used or
     available for use by the entity.”


Objectives
     The audit objective was to evaluate controls over the existence of SOM stored at
     SPAWAR locations. Specifically, we evaluated the financial reporting of
     material reported as SOM and the physical inventory control over the material.
     We also reviewed internal controls as they relate to the audit objective. See
     Appendix A for a discussion of the scope and methodology.


Review of Internal Controls
     We identified internal control weaknesses for SPAWAR as defined by DoD
     Instruction 5010.40, “Managers Internal Control (MIC) Program Procedures,”
     January 4, 2006. SPAWAR did not have adequate internal controls over the

                                           2
financial reporting and inventory management of SOM. Implementing
Recommendations A.1.a., A.1.b., and A.2 of finding A and Recommendations
B.1.a., B.1.b., and B.2. of finding B will improve the overall financial and
inventory management controls. A copy of the final report will be provided to the
senior official responsible for internal control in SPAWAR.




                                    3
                   A. Financial Reporting of Sponsor
                      Owned Material
                   SPAWAR did not accurately report its SOM. For the 152 judgmentally
                   selected sample items reviewed 3 and located at the SSC San Diego and
                   SSC Charleston:

                       •   Only 20 items, valued at $1.5 million, were correctly reported as
                           OM&S.

                       •   The remaining 132 items, valued at $103.6 million, should have
                           been reported as PP&E. Of the 132 items, 5 items were overstated
                           by $27.1 million, and 79 items (valued at $84.1 million) should
                           have been reported by other major claimants or Federal agencies.
                   SPAWAR reported these assets incorrectly because it did not comply with
                   guidance for financial reporting of assets. Also, SPAWAR categorized
                   assets as OM&S that did not meet the reporting criteria. As a result, the
                   reported value for OM&S on the Navy financial statements was overstated
                   by at least $130.7 million at the end of the first quarter FY 2006.


Process for Obtaining SOM Data by SPAWAR
           To prepare Navy financial statements, the Assistant Secretary of the Navy
           (Financial Management and Comptroller) sends out requests each quarter through
           the Data Collection Instrument process for data on the value of items in the
           possession of SPAWAR. The SPAWAR comptroller forwards the request to SSC
           San Diego and SSC Charleston. SSC San Diego and SSC Charleston collect the
           data differently.

           SSC San Diego Data Collection Process. At SSC San Diego, the inventory
           manager obtained data in two ways: electronically and manually. Usually, data
           were electronically pulled directly from the Supply Inventory Management
           System (SIMS). However, a number of branch offices in San Diego did not use
           or update the SIMS database. The inventory manager also had to request
           information from the branch offices respective databases through a manual
           extraction process and the branch offices did not always use a consistent pattern
           of respond to requests for capturing information manually.

           SSC Charleston Data Collection Process. At SSC Charleston, the inventory
           manager extracted the data directly from its Inventory Suite database. This
           system tracked all assets considered SOM that was stored in four primary
           warehouses in Charleston, buildings 1602, 1636, 1637, and 1639.

3
    The 152 sample items consisted of 104 items selected from SSC San Diego and SSC Charleston records
    for which we verified physical existence. The remaining 48 items were randomly selected off the
    warehouse floors and traced back to records.

                                                    4
Accuracy and Responsibility for Reporting SOM
    SPAWAR reported $84.1 million of SOM that should have been reported by other
    major claimants or Federal agencies. This occurred because SSC San Diego and
    SSC Charleston did not identify asset ownership and make a determination as to
    whether the asset met the criteria outlined in the SFFAS No. 3, “Accounting for
    Inventory and Related Property,” October 27, 1993, or SFFAS No. 6,
    “Accounting for Property, Plant and Equipment,” June 1996.

    Ownership of the OM&S Sample Reviewed. Material located at SSC San
    Diego and SSC Charleston was owned by other program offices in various
    agencies that should have reported the material. Of the 152 total sample items
    reviewed at SSC San Diego and SSC Charleston, we were able to identify the
    owners of 149 of the line items. The ownership of the remaining 3 items could
    not be determined.

    Table 1 shows the owners listed in the records for the sample items we reviewed.

                                   Table 1. Asset Ownership

                Owner                  Number of Line Items    Dollar Value
          SPAWAR                               70                  $ 21,045,173

          Naval Air Systems                    24                    40,535,252
          Command (NAVAIR)
          Naval Sea Systems                    15                    34,353,224
          Command (NAVSEA)
          Other Navy                           18                     4,866,044

          Air Force                             1                       80,000

          Marine Corps                         12                     1,468,380

          Other Federal Agencies                8                     2,781,860

          Other DoD Agencies                    1                         5,000

          Owner Not Determinable                3                         5,220

                TOTAL                          152                $105,140,153



    Of the 152 sample items, at least 79 line items valued at $84.1 million were assets
    for which SPAWAR was not the owner of the material. Rather, these assets
    belonged to NAVAIR, NAVSEA, and other Navy components or belonged to the
    Air Force, Marine Corps, other DoD agencies, or other Federal agencies.

    Navy Instruction 7320.10A, “Department of the Navy Personal Property Policies
    and Procedures,” April 1, 2004, establishes the policies and procedures for
    General Fund and Working Capital Fund activities. SSC San Diego and SSC
                                           5
Charleston were both Working Capital Fund activities. The Navy instruction
explains that sponsor owned personal property is any property purchased by a
major claimant and forwarded to a lower level. The Instruction states that the
financial reporting of sponsor-owned personal property, including expenditures
and depreciation, is the responsibility of the sponsor. Navy Working Capital
Fund activities were only responsible for the accountability and performance of
physical inventories for sponsor owned items.

Identification of the owner of assets was essential to ensure the accuracy of the
Navy’s financial reporting of SOM. Navy System Command management
practices must include ensuring that each command reports the assets that it owns.
The proper identification of the owner of the assets did not occur consistently at
the SPAWAR System Command.

One illustration of the lack of proper ownership accountability of SOM was an
item removed from the U.S.S. Yorktown, which was decommissioned in 2001.
The item, a High Frequency Radio Group System from the ship, was sent to SSC
Charleston where it was stored. The asset was the property of NAVSEA. SSC
Charleston became the custodian of the asset, but was not the owner. If the asset
had any residual value, the financial reporting should have been done by
NAVSEA, rather than SSC Charleston. SSC Charleston should only be
maintaining property accountability of the asset as the custodian.

Non-OM&S Assets. In addition to reporting assets that they did not own, SSC
San Diego and SSC Charleston personnel improperly included non-OM&S assets
in their financial reports. Of the 152 sample items reviewed, 132 non-OM&S
items, valued at $103.6 million, were reported as OM&S. This occurred because
guidance used by SPAWAR to report its SOM was not consistent with the SFFAS
No. 3. None of the assets would be considered consumable items as defined by
the accounting standards for OM&S. Therefore, the items should have been
classified as PP&E. Table 2 identifies examples of material that SPAWAR
reported as OM&S.

                           Table 2. Non-OM&S Assets

                    Description                     Value         Reporting Entity
 Radio Receiver                                     $ 46,451     SSC San Diego
 Radome                                                 80,246   SSC San Diego
 Receiver/Transmitter                                  324,913   SSC San Diego
 Radar Shelter W/7 Crates                            8,700,000   SSC Charleston
 Antenna System Test Set                               437,580   SSC Charleston
 ASR-8 Antenna System                                  869,800   SSC Charleston
 High Frequency Radio Group System                  $2,500,000   SSC Charleston


SPAWAR Systems Command Comptroller personnel stated that they knew the
reported value for SOM was inaccurate. They recognized the need to properly
categorize their assets and took steps to improve the process. They stated that a
new pilot program utilizing the Capital Asset Management System – Military
Equipment will make the need to categorize and report SOM non-existent after
                                     6
    FY 2007. We disagree. The Systems Centers will still need to report SPAWAR
    sponsored material assets that meet the definition of OM&S to the SPAWAR
    Comptroller for inclusion in the overall Navy financial statements.

    Data Input Errors. Five of the sample items reviewed had data input errors that
    resulted in a $27.1 million overstatement of SOM in the financial reports. The
    input errors included High Frequency Radio Group System from the U.S.S.
    Yorktown, the decommissioned ship identified above, which was erroneously
    entered into SSC Charleston’s Inventory Suite database eleven times at
    $2.5 million for a total value reported of $27.5 million. The error occurred
    because the Radio System was sent on 11 pallets and the data input clerk entered
    in the records at a value of $2.5 million rather than recording $2.5 million for the
    entire system. In another example, an erroneous value of $1.4 million was
    entered into the system for a Hewlett Packard printer. Documentation showed the
    actual value of the printer was $1,444.56.


Data Collection Instrument Updates.
    The Assistant Secretary of the Navy (Financial Management and Comptroller)
    needed to update the DCI instructions. The guidance in place did not prevent
    inaccurate classification and categorization of assets by SSC San Diego and SSC
    Charleston. The guidance does not provide the commands with sufficient
    instructions to classify items as property, equipment, inventory, or operating
    materials and supplies. The guidance provides instructions for reporting sponsor
    owned materials as operating materials and supplies and does not specifically call
    for reviews of these items as other types of property or inventory. By providing
    additional guidance to ensure compliance with SFFAS No. 3 and SFFAS No. 6,
    SSC San Diego and SSC Charleston, financial reporting requirements should be
    enhanced.


Summary
    Personnel at SSC San Diego and SSC Charleston recognized that the reporting of
    SOM was not accurate and have taken initial steps to improve the process. Until
    SPAWAR personnel are able to properly categorize the assets stored at their
    facilities and also determine specific ownership, SPAWAR financial reporting
    will continue to be inaccurate. The new systems may improve the process, but to
    ensure that the new systems perform properly, additional steps needed to be
    implemented. These include new guidance and the performance of a wall-to-wall
    inventory that identifies and properly categorizes all assets.




                                         7
Recommendations and Management Comments
    A.1. We recommend that the Commanding Officer, Space and Naval
    Warfare Systems Center San Diego and the Commanding Officer, Space and
    Naval Warfare Systems Center Charleston:

       a. Perform a wall-to-wall inventory of all material stored at Space and
          Naval Warfare Systems Command locations to identify whether they
          should be classified as Operating Materials and Supplies, Property,
          Plant and Equipment, or Inventory. In addition, the wall-to-wall
          inventory should identify specific ownership of all assets.

       b. Develop improved internal policies and procedures to comply with the
          Secretary of the Navy Instruction 7320.10A, “Department of the Navy
          Personal Property Policies and Procedures.” At a minimum, the
          policies and procedures should ensure that the Space and Naval
          Warfare Systems Centers only report Sponsor Owned Material for
          which they have ownership.

            Commanding Officer, Space and Naval Warfare Systems Centers
    Comments. The Commanding Officers, Space and Naval Warfare Systems
    Centers San Diego and Charleston concurred. They agreed to perform the
    wall-to-wall inventories at all sites. They also agreed that the inventories will
    include properly classifying all material; validating asset ownership; and updating
    the dollar value of material and other assets as needed. The Commanding
    Officers also agreed to implement new business rules for the management of
    incoming material and to update internal policies to insure compliance with the
    Secretary of the Navy Instruction 7320.10A and other relevant Navy and DoD
    guidance.

    A.2. We recommend that the Assistant Secretary of the Navy (Financial
    Management and Comptroller) revise the Data Collection Instrument
    instructions that will segregate Sponsor Owned Material into categories that
    comply with the Statement of Federal Financial Accounting Standards No. 3
    and No. 6 to ensure that Sponsor Owned Material is properly categorized.

            Assistant Secretary of the Navy (Financial Management and
    Comptroller) Comments. The Assistant Secretary of the Navy (Financial
    Management and Comptroller) concurred. The Assistant Secretary agreed to
    publish updated instructions for the Data Collection Instrument that will properly
    define the distinction between Operating Materials and Supplies and property,
    Plant, and Equipment for financial statement purposes. The Assistant Secretary
    also agreed to provide guidance to properly categorize assets.




                                         8
            B. Inventory Controls over Sponsor
               Owned Material
            SPAWAR System Centers inventory controls did not always ensure
            accurate accountability for all SOM assets. Quantities for 17 of the 152
            sample items we reviewed were not accurate. The errors had a value of
            $35.7 million. Additionally, some SOM assets were retained and stored in
            excess of allowable time frames. Also, there was a lack of total asset
            visibility over SOM assets stored at SSC Charleston. These conditions
            occurred because SSC personnel used multiple inventory databases and
            did not update the primary inventory database used for inventory
            accountability and financial reporting in a timely manner. Additionally,
            Inventory Managers were not adhering to SPAWAR material retention
            polices. As a result, SPAWAR was not in compliance with provisions of
            the SFFAS No. 3 as it relates to OM&S.




Inventory Quantities for Assets Reported
     Inventory controls were not adequate to ensure the existence and complete
     accountability for all assets classified as SOM. As part of our review, we selected
     a total of 152 sample items to verify existence and accuracy of reported
     quantities. Errors in quantities were found for 17 of the 152 sample items with
     the gross value of errors at $35.7 million. Table 3 shows the errors disclosed
     during our physical verification of SOM asset existence.




                                          9
                                  Table 3. Quantity Discrepancies Found

                                                            Qty. Per     Actual            $ Value of
       Sample No.                  Description              Records      Quantity          Difference
      CH-17             Ship Controller Station                 1        0                     $ 1,131,535
      CH-18             Ship Control                            1        0                       1,400,495
      CH-27             Analysis Receiver                       1        0                          95,980
      CH-38             Card Reader                            63        1                         328,024
      CH-50             High Frequency Radio System            11        1                      25,000,000
      SD-01             Radio Receiver                         15        11                        185,804
      SD-07             Leveler Circuit Card                    3        0                       3,358,788
      SD-08             Radio Frequency Amplifier              12        4                       1,852,832
      SD-10             Communication. Group Cabinet            2        0                       1,400,000
      SD-19             Radar Dome                              6        1                         401,230
      SD-20             Radar Dome Assembly                     6        5                          75,000
      SD-23             Antenna Drive                          14        3                         235,521
      SD-29             Circuit Card Assembly                   2        1                          77,156
      SD-34             Vinten Pan/Tilt Head                    8        6                          24,000
      SD-38             Terminal Control Unit                   3        2                          27,500
      SD-42             Power Supply                            1        0                          67,880
      SD-SUB 13         Klein Magnetron                         5        2                Undeterminable 4
       Total                                                                                  $ 35,661,745


           The inaccurate quantities were caused by the use of multiple unrelated inventory
           systems, personnel not updating the primary inventory database used for
           inventory accountability and not reporting in a timely manner, and lack of
           resources.

                   Use of Multiple Inventory Systems. One primary reason for the
           discrepancies in reported quantities was that SSC San Diego and SSC Charleston
           did not comply with guidance directing the use of one inventory management
           system. According to SPAWAR Instruction 4401.1F, “Policy for Receipt,
           Storage and Reporting of Repairable Project Material Held by SPAWAR
           Activities,” May 8, 1995, SPAWAR activities were required to implement a
           standard and centralized management system for all SOM received at an activity.
           However, data received from SSC San Diego and SSC Charleston indicated that
           the project offices used 21 different systems to manage their material.
           Furthermore, we found that of the 190 different project offices, 47 offices used
           two or more systems to keep track of assets. For the remaining 143 offices, 10
           did not identify what system they used and 133 used one inventory management
           system. However, the offices did not necessarily use SIMS which was the system
           designated for financial reporting. This situation led to inadequate updating of


4
    SSC San Diego personnel did not have pricing information in the system for the Klein Magnetron.
    Therefore, we were not able to determine a dollar value for the quantity discrepancy.

                                                     10
    the systems used for financial reporting purposes by SSC San Diego and SSC
    Charleston.

            Updating Reporting Systems. Infrequent updating the SOM inventory
    reporting systems by SPAWAR personnel contributed to a lack of inventory
    controls for SPAWAR. SSC San Diego used SIMS while SSC Charleston used a
    database called Inventory Suite to financially report SOM values to the Assistant
    Secretary of the Navy (Financial Management and Comptroller). In the 17 cases
    of discrepancies we identified, not updating one of the primary systems was a
    contributing factor in inaccurately reporting of SOM values. SSC San Diego
    personnel explained that their use of a system other than SIMS was based on the
    unique requirements of their sponsoring activity. However, in many cases, SIMS
    was not updated for several months to several years. One sample item selected
    for review at SSC San Diego was a pair of communication cabinets valued at
    $700,000 each (sample SD-10). Neither item was located at SSC San Diego.
    Rather, the items had been transferred out in November 2003 and July 2004,
    respectively. In another instance at SSC Charleston, an Analysis Receiver
    (sample CH-27) valued at $95,980 had been shipped on August 21, 2004, but
    remained on the records. These examples showed that the project offices did not
    update their reporting systems which resulted in inaccurate reporting of their
    SOM assets.

           Utilization of Inventory Manager Resources. SSC San Diego assigned
    one person as the principle Inventory Manager responsible for multiple locations
    in San Diego, overseas in Japan and Guam, as well as in Philadelphia,
    Pennsylvania. The Inventory Manager stated that she relied on the project offices
    to keep track of their own material. The Inventory Manager acknowledged that
    because personnel did not have supply management backgrounds, or they lacked
    adequate training to update the SIMS database, the system was likely to contain
    inaccurate information.


Inventory Assets Not Reported
    The Inventory Managers at both SSC San Diego and SSC Charleston did not
    report all SOM assets stored at their activities.

    Inventory Manager Visibility Over SOM Assets at SSC Charleston. The
    Inventory Manager at SSC Charleston had visibility over assets stored in four
    warehouses and at an open field where larger assets were stored. The Inventory
    Manager did not have access to data on the SOM materials stored at the various
    project office warehouses or other areas. SSC Charleston provided a spreadsheet
    that identified 28 separate locations that were operated by various technical codes
    or sponsors. We visited 6 of the locations during our review and were informed
    that the materials stored at these locations were not reported to the Inventory
    Manager at SSC Charleston. The type of material stored at the locations varied
    but included some of the following assets:

       •   major end items,


                                        11
                •   spares,

                •   repair parts,

                •   integration material,

                •   consumables,

                •   test equipment, and

                •   interim support material.

           One location we visited at SSC Charleston, Building T-29, operated by personnel
           from Project Code 5 09C and Project Code 71, contained assets valued at over
           $5.1 million. The assets were not reported or accounted for by the Inventory
           Manager. A second location we visited, Building T-20, operated by personnel
           from Project Code 60, contained assets valued at over $18 million. We noted that
           the SSC Charleston Inventory Manager did not account for or report them to
           SPAWAR.

           Inventory Manager Visibility Over SOM Assets at SSC San Diego. The
           Inventory Manager at SSC San Diego only had responsibility for assets that were
           entered in the SIMS database. However, SSC San Diego project offices
           maintained separate databases. Our review of SSC San Diego inventories
           performed to determine the accuracy of the data in SIMS identified a significant
           breakdown of internal controls necessary to identify the existence of SOM assets.
           For example, the Inventory Manager performed an inventory between February 9,
           2004, and February 17, 2004, on Project Code 2632 SOM assets. This inventory
           resulted in only a 67.85 percent accuracy rate in locating assets identified as
           SOM. The Inventory Managers report stated that one of the major reasons for the
           inaccuracies was that the inventory custodian for Project Code 2632 had no
           knowledge of where assets had been relocated. Also, the SIMS database for
           Project Code 2632 had never been updated. In total, the SSC San Diego database
           showed $686.7 million of SOM assets. However, the amount of SOM assets
           reported by SSC San Diego for financial statement purposes totaled $844.5
           million. In an attempt to explain the $157.8 million difference, SSC San Diego
           provided a spreadsheet that showed 16 of 41 project offices had not updated their
           SIMS database.


SOM Asset Retention and Storage
           SSC San Diego and SSC Charleston retained and stored SOM assets beyond the
           completion of projects at the request of the program offices. The storage of these
           assets, with limited warehouse space at both activities, hampered the Inventory
           Managers ability to provide adequate resources for newer projects requiring
           storage of material. This condition occurred because the Systems Centers did not

5
    SSC Charleston’s offices that are considered laboratories and engineering facilities are called Project
    Codes.

                                                       12
follow established retention guidance requiring justification for storage of
material between a projects life cycle.

SPAWAR Guidance on Material Retention. SPAWAR Instruction 4401.1F,
“Policy for Receipt, Storage and Reporting of Repairable Project Material Held
by SPAWAR Activities,” May 8, 1995, states:
       Periodic inspections of SPAWAR activities reveal that material has
       been improperly directed from external activities (pushed) procured for
       installation subsequently cancelled or retained beyond the completion
       of a project. Much of this material held by SPAWAR activities is: (a)
       not properly identified; (b) beyond economical repair; (c) in
       unserviceable condition [e.g., Condition Code (F)] or (d) is obviously
       “junk.” This material is being retained for no valid or identifiable
       purpose. A need for full asset visibility, improved control, and
       accountability procedures for equipment held by SPAWAR activities
       has been recognized.

The observations and implied need for attention did not cause a change in
practices. Our review disclosed the following:

   •   Line items (3,547), valued at $32,869,569, were coded as Condition Code
       ‘F’ (unserviceable) in SSC San Diego’s overall universe. No action was
       taken on the assets and they were on record in their database and reported
       on the quarterly DCI.

   •   Assets ($8,913,783) in the SSC San Diego universe were identified as
       “Excess, Obsolete, and Beyond Repair” (U.S. General Ledger Account
       Code 1513).

   •   Line items (1,247) stored at SSC Charleston had exceeded the established
       maximum retention period. These assets belonged to PMW 160 located at
       SPAWAR.

   •   Material stored in Building 1639 at SSC Charleston contained a heavy
       covering of dust and the white coverings were almost black and
       unrecognizable. When asked about the storage of these older assets, SSC
       Charleston personnel informed us that many program offices wanted to
       retain the assets in case there was a future need for them. However, SSC
       Charleston personnel believed that maintaining these older assets was
       creating a storage problem for newer programs that require storage space.

In addition, total asset visibility of SOM assets was lacking for SSC Charleston.

Total Asset Visibility. SSC Charleston was not in compliance with the provision
of SPAWAR Instruction 4401.1F that required it to maintain total asset visibility.
SSC Charleston did not provide total asset visibility for its SOM assets through
the use of the Realtime Reutilization Asset Management/Virtual SOM
(RRAM/VSOM) system. RRAM/VSOM is a system maintained by the Naval
Supply Systems Command (NAVSUP). The purpose of the system was to
provide on-line, real time visibility of selected material, such as SOM. VSOM
was not managed by RRAM, in that it was a stand-alone database used for
                                         13
    visibility only. Control of inventory is the responsibility of an activity’s local
    system. SSC San Diego and SSC Charleston maintain total control over the
    release of assets in the system. SSC San Diego personnel transferred all assets
    from the SIMS database on a daily basis to the RRAM/VSOM database.
    However, SSC Charleston only provided a limited number of its assets from its
    Inventory Suite database to the RRAM/VSOM database. For example, on
    October 1, 2006, SSC Charleston transferred 721 of its assets. In discussions with
    SSC Charleston and SSC San Diego personnel, we determined that there was a
    lack of consistency in reporting requirements between the two commands.
    Therefore, the System Commands will need to coordinate with NAVSUP to
    determine the proper reporting requirements for future transfers of data to the
    RRAM/VSOM database for accurate reporting.


Plans to Change SOM Inventory Operations
    NAVSUP planned to assume inventory management operations at SSC
    Charleston and SSC San Diego beginning in FY 2008. The change is part of a
    Material Support Integration plan to consolidate material management and other
    Navy supply functions. NAVSUP plans to provide the following services when it
    assumes control:

       •   supervision and clerical support;

       •   control and processing of receipt documents;

       •   stock control and inventory accuracy;

       •   inspection and quality control;

       •   packaging, handling, storage, and transportation; and

       •   distribution, maintenance, and disposal.
    Material ownership and management will not be transferred to NAVSUP, but will
    be retained by the sponsors. Also, inventory management personnel and process
    currently at the systems centers will remain the same. The program offices will
    be reviewed for transfer in Phase II of the change in inventory management.

    Although the planned change in inventory management and supply operations by
    NAVSUP should improve the controls, several actions need to be taken during the
    transition. These actions include a full analysis of the material stored at all
    SPAWAR activities to determine the need to maintain the asset. In addition, SSC
    Charleston needed to interface with the RRAM/VSOM database to insure total
    asset visibility of all SOM assets. Because NAVSUP was assuming control of the
    supply management function in the future, we are not making recommendations
    related to the Inventory Manager functions.




                                        14
Recommendations and Management Comments
    B.1. We recommend that the Commanding Officer, Space and Naval
    Warfare Systems Center San Diego and the Commanding Officer, Space and
    Naval Warfare Systems Center Charleston :

       a. Establish guidelines to ensure that all systems centers update the
          Supply Inventory Management System and the Inventory Suite
          database within one week of receipt, issue, or disposal of an asset.

            Commanding Officer, Space and Naval Warfare Systems Centers
    Comments. The Commanding Officers, Space and Naval Warfare Systems
    Centers San Diego and Charleston concurred. The Commanding Officers agreed
    to instruct all project offices and Space and Naval Warfare Systems Centers
    activities to update a centralized inventory management database within one week
    of occurrence.

       b. Require the program offices to provide justification for storing assets
          in the Space and Naval Warfare Systems Centers warehouses for
          programs no longer in operation.

           Commanding Officer, Space and Naval Warfare Systems Centers
    Comments. The Commanding Officers, Space and Naval Warfare Systems
    Centers San Diego and Charleston concurred. The Commanders will instruct all
    technical codes to obtain and maintain written justification for storing assets
    beyond project completion from owning sponsors.

    B.2. We recommend that the Commander, Space and Naval Warfare
    Systems Center Charleston, require a weekly interface with the Realtime
    Reutilization Asset Management/Virtual Sponsor Owned Material database
    to improve total asset visibility.

            Commanding Officer, Space and Naval Warfare Systems Center
    Charleston Comments. The Commanding Officer, Space and Naval Warfare
    Systems Center Charleston concurred. The Commanding Officer agreed to
    develop and implement procedures for timely and accurate update of the Realtime
    Reutilization Asset Management/Virtual Sponsor Owned Material database in
    accordance with the Naval Supply Systems Command business rules for total
    asset visibility.




                                       15
Appendix A. Scope and Methodology
   We performed the audit at the Space and Naval Warfare Systems Command
   (SPAWAR) Headquarters in San Diego, California, and at the Space and Naval
   Warfare System Centers (SSC) located in San Diego, California, and in
   Charleston, South Carolina, to evaluate the controls over the existence of Sponsor
   Owned Material (SOM). We conducted interviews and reviewed database files
   and inventory records maintained by SPAWAR, SSC San Diego, and SSC
   Charleston. We also reviewed DoD and Navy policies and regulations regarding
   responsibilities and procedures for the control over and financial reporting of
   Operating Materials and Supplies (OM&S). We judgmentally selected 152 items
   to perform record-to-floor and floor-to-record reviews to determine physical
   existence and record accuracy. The 152 sample items consisted of 104 items
   selected from SSC San Diego and SSC Charleston records for which we verified
   physical existence. The remaining 48 items were randomly selected off the
   warehouse floors and traced back to records.

   We performed this audit from January 2006 through December 2006 in
   accordance with generally accepted government auditing standards.

   Scope Limitation. We requested first quarter FY 2006 SOM data for our review.
   However, we did not, at first, obtain the correct database file for the first quarter
   from the System Centers. The database files did not match the total SOM
   reported by either SSC San Diego or Charleston in the first quarter Data
   Collection Instrument (DCI) report provided to the Assistant Secretary of the
   Navy (Financial Management and Comptroller). In subsequent attempts by the
   System Centers to provide the correct data, they were able to provide databases or
   documentation that more closely matched amounts reported on the DCI. The
   System Centers provided an explanation on the discrepancies that justified the
   difference between the first database provided and the DCI report. The inability
   to provide an exact match to the DCI report did not preclude us from performing
   the audit and did not have an impact on the results of the audit.

   Use of Computer-Processed Data. We did not evaluate the general and
   application controls of the automated systems, although we used data produced by
   these systems to supplement the audit. We did not evaluate the controls over
   computer processed data because the objective of this audit was to review
   controls over the existence of Sponsor Owned Material for financial reporting.
   Not evaluating the controls over computer processed data did not affect the results
   of the audit.
   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   provides coverage of the DoD financial management and supply chain
   management high-risk areas.

   Prior Coverage. No prior coverage has been conducted on Sponsor Owned
   Material within the Space and Naval Warfare System Center during the last
   5 years.

                                        16
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Space and Naval Warfare Systems Command
  Commanding Officer, Space and Naval Warfare Systems Center San Diego
  Commanding Officer, Space and Naval Warfare Systems Center Charleston

Non-Defense Federal Organizations and Individuals
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                          17
Department of the Navy Comments




                    19
20
21
22
23
Space and Naval Warfare Systems Command
Comments




                    24
25
26
27
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
James L. Kornides
John K. Issel
Clarence E. Knight III
William C. Blouvet
Lusk F. Penn
Erin S. Hart
Karen Bennett
